No. 20-5786
IN THE SUPREME COURT OF THE UNITED STATES
_____________________________________________________________
WILLIAM EARL SWEET,
PETITIONER
VS.
STATE OF FLORIDA,
RESPONDENT.
____________________________________________________________
ON PETITION FOR WRIT OF CERTIORARI TO
THE SUPREME COURT OF FLORIDA
_____________________________________________________________
REPLY PETITION FOR WRIT OF CERTIORARI
________________________________________________________________

JULIE A. MORLEY
Counsel of Record
JAMES L. DRISCOLL
TRACY M. HENRY
LAW OFFICE OF THE CAPITAL COLLATERAL REGIONAL COUNSEL
MIDDLE REGION
12973 N. TELECOM PARKWAY
TEMPLE TERRACE, FLORIDA 33637
PHONE NO. (813) 558-1600
FAX NO. (813) 558-1601
Email: morley@ccmr.state.fl.us

CAPITAL CASE
TABLE OF CONTENTS
TABLE OF CONTENTS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .iii
REPLY TO BRIEF IN OPPOSITION TO PETITION FOR
WRIT OF CERTIORARI. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .10

ii

TABLE OF AUTHORITIES
CASES:
Beck v. Alabama,
447 U.S. 625 (1980) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1
Coleman v. Thompson,
501 U.S. 722 (1991) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4, 5
Giglio v. United States,
405 U.S. 150 (1972) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7
Martinez v. Ryan,
566 U.S. 1 (2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4, 6
Murray v. Giarratano,
492 U.S. 1 (1989) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Strickland v. Washington,
466 U.S. 668 (1984) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Sweet v. State,
810 So. 2d 854 (Fla. 2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Williams v. Taylor,
529 U.S. 362 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

iii

IN THE SUPREME COURT OF THE UNITED STATES
REPLY TO BRIEF IN OPPOSITION TO PETITION FOR WRIT OF
CERTIORARI
A death penalty case requires due process at every stage in the proceedings.
Beck v. Alabama, 477 U.S. 625, 637 (1980) (“death is a different kind of punishment
from any other which may be imposed in this country . . . different in its severity and
its finality, and the action of the sovereign in taking the life of one of its citizens also
differs dramatically from any other legitimate state action”). Respondent’s Brief in
Opposition (BIO) claims that Mr. Sweet’s numerous pleadings have simply managed
to secure delay and that the surviving victims of Mr. Sweet’s crimes deserve better.
BIO p. 1-2. On the contrary, Mr. Sweet, an innocent man, is simply demanding
justice.
During trial, Mr. Sweet was represented by an alcoholic attorney with no capital
experience. The trial was fraught with errors from this defense attorney. The State’s case was
weak - no physical evidence, weapons, bullets, DNA, blood, or hair tying Mr. Sweet to the
crime. Although witnesses testified that the shooter wore a ski mask or that his face
was obscured by dark clothing, none of these items were recovered. The murder
weapon was also never recovered. Since 1991, numerous errors committed by trial counsel
have been discovered and the State’s already weak case continued to crumple. State witness
Solomon Hansbury admitted to fabricating the jailhouse confession used to convict Mr. Sweet.
Eyewitness Marcene Cofer testified that she does not “want Earl Sweet to die on death
row and he wasn’t the one that pulled that trigger.” T/88. The only original evidence
left from the State’s case-in-chief that barely ties Sweet to this crime is Sharon
1

Bryant; a twelve year old who identified Mr. Sweet in a suggestive lineup that was
later suppressed; who viewed a man’s obscured face through a peephole for a mere
six or seven seconds, and failed to a good look at the perpetrator during the actual
shooting.
Through postconviction investigations, Mr. Sweet was able to develop his own
witnesses that both his trial attorney never offered in defense and whose testimony was never
considered by the jury. Anthony McNish testified at the first postconviction hearing
that he saw three people by Cofer’s apartment in the early morning hours of June 27,
1990. None of the three men McNish observed could have been Sweet because they
had a different walk, skin complexions, and weight than Sweet. Eric Wilridge testified
at Mr. Sweet’s Sixth Motion evidentiary hearing that during the early morning on
June 27, 1990, moments before the shooting, he observed a man he did not recognize
standing outside Cofer’s door. Wilridge stated that Mr. Sweet is taller, more slender
and has darker skin than the man he saw that night.
All the evidence developed since Mr. Sweet’s faulty conviction, when examined
as a whole and in conjunction with the evidence from trial gives rise to a reasonable
doubt as to his culpability. If Mr. Sweet were tried again today, the evidence left for
the State’s case-in-chief could not pass constitutional muster and meet the standard
of proof beyond a reasonable doubt.
With the State of Florida seeking the ultimate punishment against Mr. Sweet,
this Court must demand higher standards of the death penalty scheme in Florida to
ensure that due process is met at every stage of the proceedings. Failures made by
trial and postconviction counsel must be considered by the courts when examining
2

underlying substantive claims. Procedural defaults should not prevent a full and fair
hearing on the issues developed, particularly for a person claiming actual innocence.
It is unconscionable and violates Mr. Sweet’s constitutional rights to hold him on
death row without a hearing conducted in accordance with full due process regarding
his claims listed in the petition for writ of certiorari.
Respondent’s Brief in Opposition raises several points that Mr. Sweet contests.
Not all issues will be addressed in this Reply Brief and Mr. Sweet does not waive any
argument previously made in his petition for writ of certiorari. Mr. Sweet responds
to these points in the Brief in Opposition as follows:
I(1) –Respondent’s BIO argues that no split has been identified to support
Petitioner’s argument that Florida should recognize a claim of ineffective
assistance of postconviction counsel. BIO p. 9-10.
The State misapprehends the issue. Mr. Sweet does not seek to bring his case
into conformance with other states; he seeks to bring his case into conformance with
a fair procedure that ensures that justice will be done. Mr. Sweet argued that due
process and the right to seek habeas corpus should allow him to have his claims heard
in the forum that the federal and state system makes the primary forum for review
of constitutional issues. He makes this argument from a position of innocence, which
fundamental decency requires deference.
As seen in his case, more is at issue than mere postconviction state litigation.
The failure of postconviction counsel has far wider implications than a mere state
counsel failure. While Mr. Sweet may not have a right to counsel as a technical
matter, Florida provides for such counsel. The State, having provided counsel, cannot
provide counsel that results in a suspension of the writ and denies the writ of habeas
3

corpus’ place in the United States Constitution. The failure to raise important claims
only results in a bar in federal court after denying Mr. Sweet first impression
complete review. Martinez v. Ryan, 566 U.S. 1 (2012), if even applicable, is a paltry
replacement for the first review that is the responsibility of the state courts and, if
federal review is even possible, forms the basis of the decisions that the federal courts
review.
Failing to raise an important claim of ineffectiveness is more than a missed
opportunity in State court, but rather, is such a harsh barrier to obtaining federal
relief that it amounts to a suspension of the writ. A state cannot overlook claims of
ineffectiveness as the primary forum for deciding such claims when the reason for
declining review is that the state’s own provided counsel performed inadequately and
effectively denied habeas review, thus suspending relief the writ.
As far as the State’s reliance on this Court’s precedent regarding the issue of
the right to counsel in postconviction, Mr. Sweet makes no such assertion. Murray v.
Giarratano, 492 U.S. 1 (1989), addresses whether there is a right to counsel in
postconviction, not whether there is a right to have claims heard and whether state
provided counsel can frustrate the hearing of claims. Mr. Sweet has underlying claims
of constitutional violation that were not considered in state court and will face such
difficulties if he could even have a full and fair hearing in federal court that this
amounts to a suspension of the writ.
The State’s reliance on Coleman v. Thompson, 501 U.S. 722, 725 (1991),
although slightly modified by Martinez, only proves the necessity for requiring the
state courts to hear claims that were not presented because state counsel fumbled
4

them. Coleman shows that even pre-AEDPA, unmitigated harshness results in
federal court upon the failure of state postconviction. While it is not necessary for a
state to provide counsel in postconviction, it is unconstitutional for the state to
provide counsel that precludes federal review because this amounts to a suspension
of the writ.
Absent from the State’s BIO is any acknowledgement of the particular
responsibility that state courts, as the primary guardians of the federal constitution,
have in handling cases with claims of actual innocence. The state courts, in this
capacity, must adhere to a higher standard when innocence is at issue.
Because of postconviction counsel’s failures, Mr. Sweet was denied review of
claims that might have relieved him of a wrongful conviction. He has the right to ask
for more from the state courts. This Court should require Florida to recognize
ineffectiveness of postconviction as a vehicle to allow underlying claims to be heard
in all cases in which the rights under the United States Constitution are at issue, and
especially when those rights belong to an actually innocent individual awaiting relief
after wrongly spending decades on death row.
I(2) – Respondent incorrectly argues that review is unwarranted because
“the question presented is not an important question of federal law as it is
unlikely to impact many prisoners’ cases.” BIO p. 13.
The State went on to argue that “even when states fail to provide effective
postconviction counsel, state prisoners are seldom left without a remedy. That is
because a state’s failure to provide effective counsel in postconviction proceedings
can, in certain circumstances, provide cause to raise ineffectiveness of trial counsel
claims on federal habeas review.” BIO p. 13. The State’s argument is disingenuous.
5

The State would, as they inevitably do in most cases, respond to any so-called
Martinez claim with an outcry of “procedural bar.” Moreover, Martinez, at best, is still
an insufficient substitute for the full review for which the state courts have the
primary responsibility. Martinez only applies to claims involving the ineffectiveness
of trial counsel and does not encompass the right to raise other claims forfeited by
counsel. Additionally, it does not overcome time bars or the bar on successive
petitions, as the State will inevitably raise in the future and has raised in the past,
let alone any retroactivity problems with Martinez.
Martinez by its own limitations, fails to consider actual innocence and does not
require an overarching review that takes into account actual innocence. There can be
no more of an important “federal question” then whether an individual has access to
the courts and the great writ without de facto suspension by the State and state
provided counsel. That a prisoner “may” be able to, in a narrow class of cases, show
cause and prejudice, is insufficient to overcome the right of habeas corpus and the
Constitution’s bar on suspension.
I(3) – Respondents incorrectly argue that Mr. Sweet’s case presents “a poor
vehicle to consider the first question presented.” BIO p. 14.
Respondents argument that Mr. Sweet did not frame his first claim in federal
terms during his State proceedings and thus is barred from presenting it in this writ
of certiorari is incorrect. BIO p. 15. Claim 1 of Mr. Sweet’s Eighth Successive Motion
to Vacate Judgments of Conviction and Sentence is titled “Mr. Sweet was a victim of
ineffective assistance of trial and post-conviction counsel given that he was
represented by a lawyer with a severe drinking problem and post-conviction counsel
6

never used this evidence during any post-conviction proceeding in violation of due
process and his right to counsel under the Fifth, Sixth and Fourteenth Amendments
to the U.S. Constitution and corresponding provisions of the Florida Constitution.”
Further, Argument I in Mr. Sweet’s Initial Brief to the Florida Supreme Court
states that “Mr. Sweet was a victim of prejudicial ineffective assistance of trial and
post-conviction counsel.” Initial Brief (“IB”) p. 20. Specifically, Mr. Sweet cites to
Strickland v. Washington, 466 U.S. 668 (1984) and Williams v. Taylor, 529 U.S. 362
(2000) in support of his underlying claims on ineffective assistance of trial counsel.
IB p. 21-22. In that brief, Mr. Sweet also argues that “post-conviction counsel
rendered prejudicial ineffective assistance of counsel by failing to file Mr. Sweet’s
false testimony claim in violation of his rights under the Fifth, Sixth and Fourteenth
Amendments to the United States Constitution and corresponding provisions of the
Florida Constitution.” IB p. 27. This subclaim specifically cites to Giglio v. United
States, 405 U.S. 150 (1972) in support for the merits to Mr. Sweet’s underlying claim.
IB p. 33. Thus, Mr. Sweet has based the claims found within question 1 of his petition
for writ of certiorari in federal law and the United States Constitution.
Respondents also claim that Mr. Sweet’s underlying claim for ineffective
assistance of trial counsel is making “similar ineffectiveness arguments” to claims
already considered and rejected by the State courts during his first petition for
postconviction review. BIO p. 12. It is true that Mr. Sweet’s first petition for
postconviction relief contained claims alleging the fact that his trial counsel was
ineffective during both the guilt and penalty phase of his capital trial. See Sweet v.
State, 810 So. 2d 854 (Fla. 2002). These claims were filed in a motion to vacate
7

judgments of conviction and sentence on August 1, 1995, which was subsequently
amended on June 30, 1997. However, the postconviction attorneys representing Mr.
Sweet prior to and during the evidentiary hearing on these claims are the same ones
who failed to use vital information during the hearing regarding his trial attorney’s
alcoholism and overall trial competency. See Claim I(A)(1), Petition for Writ of
Certiorari. Thus, while the trial court and the Florida Supreme Court rejected claims
of trial attorney ineffectiveness nearly twenty years ago, neither court had the benefit
of new and damaging information regarding trial counsel. Due to errors and
omissions from prior postconviction counsel, the courts lacked all the necessary
information needed to rule on this claim. To this day, no state court has re-weighed
the merits of these claims with the new information since presented.
III(2) – Respondents argued that this “Court has never held that freestanding actual innocence claims are cognizable.” BIO p. 28-29.
Here the State argued that there is no split of authority between state laws
and that “[t]his Court has never held that free-standing actual innocence claims are
cognizable.” BIO p. 29. Herrera v. Collins, 506 U.S. 390, 416 (1993) states, “We may
assume, for the sake of argument in deciding this case, that in a capital case a truly
persuasive demonstration of ‘actual innocence’ made after trial would render the
execution of a defendant unconstitutional, and warrant federal habeas relief if there
were no state avenue open to process such a claim.” The State acknowledges this
statement but ignores the practicalities of how this is supposed to work. If the truly
persuasive demonstration is to take place, it will have to take place in state court for
purposes of exhaustion before it could be presented to federal courts. If state courts,
8

like in Florida, do not allow for that showing because those courts do not recognize
the right to such a claim, an actually innocent individual will never be able to
demonstrate such and obtain relief in federal court.
Florida’s failure to consider actual innocence claims is not overcome by
Florida’s willingness to consider newly discovered evidence. Mr. Sweet’s case shows
that actual innocence evidence emerges over time and continues to build on the
previous evidence. While there is a possibility of immediate revelation of innocence
in some circumstances, such as DNA, it remains highly likely that the case for
innocence will be built over many years. Innocence shown over time is no less “a truly
persuasive demonstration of ‘actual innocence’” and no less worthy of relief. The state
courts should be required to reckon with these important issues as the courts with
the greatest responsibility for the Constitution.
While “most states do not acknowledge a freestanding claim of actual innocence”
(BIO at 29; citations omitted), it is a far different question of whether they should. This

Court should grant the petition for writ of certiorari.

9

CONCLUSION
For the reasons outlined in Mr. Sweet’s petition for writ of certiorari and those
arguments present above, Mr. Sweet’s petition for writ of certiorari should be
granted.

Respectfully submitted,
/s/ Julie A. Morley
Julie A. Morley
Counsel of Record
JAMES L. DRISCOLL
TRACY M. HENRY
LAW OFFICE OF THE CAPITAL COLLATERAL REGIONAL
COUNSEL - MIDDLE REGION
12973 N. TELECOM PARKWAY
TEMPLE TERRACE, FLORIDA 33637
PHONE NO. (813) 558-1600
FAX NO. (813) 558-1601
Email: morley@ccmr.state.fl.us
Date: November 5, 2020

10

